No. 19-1166

In The

Supreme Court of the United States
____________

DINÉ CITIZENS AGAINST RUINING OUR ENVIRONMENT, SAN JUAN CITIZENS ALLIANCE;
AMIGOS BRAVOS; SIERRA CLUB; AND CENTER BIOLOGICAL DIVERSITY,
Petitioners,
V.

NAVAJO TRANSITIONAL ENERGY COMPANY, LLC; ARIZONA PUBLIC SERVICE COMPANY;
BUREAU OF INDIAN AFFAIRS; U.S. DEPARTMENT OF THE INTERIOR; U.S. OFFICE OF
SURFACE MINING RECLAMATION AND ENFORCEMENT; U.S. BUREAU OF LAND
MANAGEMENT; DAVID BERNHARDT, IN HIS OFFICIAL CAPACITY AS SECRETARY OF THE
INTERIOR; U.S. FISH AND WILDLIFE SERVICE,
____________

Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
____________
BRIEF IN OPPOSITION
____________
CERTIFICATE OF SERVICE
I, Roman Martinez, counsel of record for Respondent Arizona Public Service
Company, and a member of the Bar of this Court, hereby certify that on the 4th day
of June, 2020, I caused to be served three (3) copies of the Brief in Opposition in the
above-referenced case by U.S. first-class mail, postage prepaid, upon the counsel for
Petitioners and Respondents as listed below:

Sarah E. Harrington
Goldstein & Russell, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
sh@goldsteinrussell.com
Counsel for Petitioners
Noel J. Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Federal Respondent
Sara Kobak
Schwabe, Williamson & Wyatt, PC
1211 SW Fifth Avenue
Suite 1900
Portland, OR 97204-3795
(503) 222-9981
skobak@schwabe.com
Counsel for Respondent Navajo Transitional Energy Company
Additionally, in accordance with Supreme Court Rule 29.3, an electronic
version of the Brief in Opposition was transmitted to counsel for Petitioners and
Respondents at the email addresses indicated above.

2

I further certify that all parties required to be served have been served.

By

ROMAN MARTINEZ
LATHAM & WATKINS LLP
555 Eleventh Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2200
roman.martinez@lw.com
Counsel for Respondent
Arizona Public Service Company

3

